  SIGAR                                              Special Inspector General for
                                                      Afghanistan Reconstruction




                                                                 SIGAR Inspection 13-7




         Qala-I-Muslim Medical Clinic: Serving the
         Community Well, But Construction Quality Could
         Not Be Fully Assessed




                                                                              APRIL
                                                                             2013

SIGAR Inspection 13-7/Qala-I-Muslim Medical Clinic
                                             April 2013



SIGAR
Special Inspector General for
                                             Qala-I-Muslim Medical Clinic: Serving the Community Well, But Construction Quality
                                             Could Not Be Fully Assessed

                                             SIGAR Inspection 13-7

Afghanistan Reconstruction                   WHAT SIGAR FOUND
                                             The CERP-funded construction of the Qala-I-Muslim medical clinic appears to be
WHAT SIGAR REVIEWED                          a success story. The community of 4,000 people supported the clinic’s
In September 2010, Joint Task                construction, a villager donated the land, and the facilities are being used daily.
Force Kabul, within U.S. Forces-             The clinic consists of three structures—a single-story, multiple-room medical
Afghanistan, awarded a $160,000              clinic, a pharmacy, and a latrine--and primarily provides basic medical care for
Commander’s Emergency Response               women and children, including immunizations. At the time of our inspection,
Program (CERP) contract to                   available records showed 1,565 outpatient consultations, 63 prenatal patients,
Zwakman Nabizai Construction                 and 63 newborn deliveries since the clinic opened in September 2011.
Company. The contract involved               Our inspection also showed that the facilities are being well sustained. The
building a medical clinic in the             Ministry of Public Health signed an agreement as part of the project approval
village of Qala-I-Muslim, Kabul              process to sustain the clinic upon completion and it has fulfilled its commitment
province. As part of its inspection          to do so. Our inspection showed that the heating system worked, floors were
program, the Special Inspector               clean, bedding was plentiful and well kept, and the pharmacy was well stocked.
General for Afghanistan
Reconstruction (SIGAR) conducted             Although we did not observe any major construction deficiencies during our
a site inspection at the facility to         inspection, we were not able to fully assess whether the clinic’s construction met
determine whether construction               contract requirements and construction standards. The assessment was
was completed in accordance with             unattainable because more than half of the required project documents, such as
contract requirements and                    blueprints and quality assurance reports, were missing from the Department of
applicable construction standards,           Defense’s Combined Information Data Network Exchange (CIDNE) database.
and whether facilities were being            SIGAR has previously reported on the problem of missing CERP project
used as intended and sustained.              documentation, and the missing documents for this project indicate that it is still
                                             a problem.
SIGAR reviewed available contract
documents to prepare for its site            WHAT SIGAR RECOMMENDS
inspection on January 23, 2013.
Based on limited project                     SIGAR recommends that the Commanding General, U.S. Forces-Afghanistan,
documentation, SIGAR was unable              direct the appropriate force elements to (1) ensure that project documentation
to review technical specifications,          related to CERP projects complies with CERP guidelines and (2) periodically
design submittals, geotechnical              review the CIDNE database to ensure that all required project files are uploaded.
reports, and quality assurance               In commenting on a draft of this report, U.S. Forces-Afghanistan concurred with
reports. SIGAR conducted its work            our recommendations. U.S. Forces-Afghanistan’s comments are presented in
in Kabul province, Afghanistan from          appendix IV.
September 2012 through March
2013, in accordance with Quality
Standards for Inspection and
Evaluation published by the Council
of the Inspectors General on                                                                              Qala-I-Muslim
Integrity and Efficiency.                                                                                 Medical Clinic
                                                                                                          Entrance.
                                                                                                          Source: SIGAR,
                                                                                                          January 23, 2013




       For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
April 17, 2013


General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General James L. Terry
Commander, International Security Assistance Force Joint Command, and
   Deputy Commander, U.S. Forces-Afghanistan

Major General Kenneth R. Dahl
Deputy Commander-Support, U.S. Forces-Afghanistan, and
  Commander, U.S. National Support Element Command-Afghanistan


This report discusses the results of SIGAR’s inspection of the Qala-I-Muslim medical clinic in
Kabul province, Afghanistan. The clinic was constructed as part of the Commander’s
Emergency Response Program (CERP) and completed in September 2011. This inspection
report is one in a series of several reports that will focus on military, police, medical,
educational, and agricultural facilities in Kabul province.
This report contains two recommendations to the Commanding General, U.S. Forces–
Afghanistan to direct the appropriate force elements to (1) ensure that CERP project
documentation complies with CERP guidelines and (2) periodically review the Combined
Information Data Network Exchange database to ensure that complete project files are
uploaded.
In commenting on a draft of this report, the U.S. Forces-Afghanistan concurred with both
recommendations. The comments are presented, in their entirety, in appendix IV. SIGAR
conducted this inspection under the authority of Public Law No. 110-181, as amended, and
the Inspector General Act of 1978, as amended.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS

Background .................................................................................................................................................................. 1 

Qala-i-Muslim Community Is Using the Medical Clinic............................................................................................... 2 
Afghan Government Is Sustaining the Medical Clinic................................................................................................ 2 
No Major Construction Issues Were Identified, but Missing Documentation Prevented a Complete Inspection .. 3 

Conclusion.................................................................................................................................................................... 4 
Recommendations ...................................................................................................................................................... 4 
Comments .................................................................................................................................................................... 4 

Appendix I - Scope and Methodology ......................................................................................................................... 5 
Appendix II - Qala-I-Muslim Medical Clinic Building Plan ........................................................................................... 6 
Appendix III - Commander’s Emergency Response Program Documentation ......................................................... 7 
Appendix IV - Comments from U.S. Forces–Afghanistan ........................................................................................... 9 
Appendix V - Acknowledgments ................................................................................................................................ 11 


 TABLES

Table I - Documentation Check List ............................................................................................................................ 7 

FIGURES

Figure I - Medical Clinic Building Plan ........................................................................................................................ 6 


PHOTOS

Photo 1 - Medical Clinic (left), with Pharmacy and Latrine ....................................................................................... 1 
Photo 2 - Post-Natal Room .......................................................................................................................................... 2 
Photo 3 - Pharmaceutical Supply Room ..................................................................................................................... 2 


ABBREVIATIONS & ACRONYMS

             CERP                                       Commander’s Emergency Response Program
             CIDNE                                      Combined Information Data Network Exchange
             SIGAR                                      Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic                                                                              Page i
A key goal of the Civil-Military Strategic Framework for Afghanistan is to focus on socio-economic development
that will provide the country with long-term and sustainable initiatives. To support these efforts, the
Department of Defense’s Commander’s Emergency Response Program (CERP) provides funding to unit
commanders to enable them to respond quickly to urgent humanitarian relief and reconstruction needs by
carrying out programs to immediately assist Afghan communities.1 CERP funds have been used for a variety of
projects including public roads, schools, and medical clinics. This CERP project, a new medical clinic, was
requested by the village elders in Qala-I-Muslim, Kabul province.
Our objectives for this inspection were to assess the quality of the facility’s construction, determine whether
the facility was being used as intended, and determine whether the facility was being sustained.
We conducted this inspection in Kabul province, Afghanistan, from September 2012 through March 2013, in
accordance with the Quality Standards for Inspection and Evaluation, published by the Council of the
Inspectors General on Integrity and Efficiency. The engineering assessment was conducted by Professional
Engineers in accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers.
Appendix I contains more detail on our scope and methodology.


BACKGROUND

Joint Task Force Kabul, within U.S. Forces-Afghanistan,                     Photo 1 - Medical Clinic (left), with
awarded a firm fixed-price contract (CERPOMKBTPP194) on                     Pharmacy and Latrine
September 21, 2010, for $160,024, to Zwakman Nabizai
Construction Company. This CERP-funded contract, with a
360-day period of performance, called for a new medical clinic
to be built in the village of Qala-I-Muslim. The clinic facility
consists of three separate structures: a single-story, multiple-
room medical clinic; a one-room pharmacy; and a latrine.2
Photo 1 shows the three structures.
The village of Qala-I-Muslim, consisting of about 4,000 people,
already had a small store-front medical clinic that served about
80 people per month. The new clinic was not intended to
replace the existing clinic but instead to provide additional
services to the community. The local elders placed a high
priority on the medical clinic, with one of the elders donating
the land on which the clinic was built.                                     Source: SIGAR, January 23, 2013.




1 USFOR-A’s Money As A Weapon System–Afghanistan (MAAWS-A) provides guidance on the use of CERP funds in

Afghanistan. CERP funding criteria for project selection includes (1) sustainability by the local community, an Afghan
agency, or the Afghan government; (2) benefit to the Afghan population; (3) high visibility to the local populace; (4) support
for local, community, and national member employment; and (5) ability to execute quickly.
2   Appendix II provides a building plan for the medical clinic.



SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic                               Page 1
QALA-I-MUSLIM COMMUNITY IS USING THE MEDICAL CLINIC

Photo 2 - Post-Natal Room                                 Our site visit to the medical clinic showed that the facility
                                                          was being used for its intended purposes. We reviewed
                                                          available clinic records which showed that 1,565
                                                          outpatient consultations, 63 prenatal patient visits, and 63
                                                          newborn deliveries had taken place since the clinic opened
                                                          in September 2011. The clinic director told us that the
                                                          medical clinic currently serves about 200 to 300 patients
                                                          per month. He also stated that the clinic is a more modern
                                                          facility than the store-front clinic and that it has been well
                                                          received by village residents.
                                                          Clinic officials told us that the medical clinic was staffed
                                                          with doctors and nurses who primarily provide health care
                                                          to women and children.3 Photo 2 shows the mother and
                                                          infant beds in the post-natal room. We also noted other
                                                          basic healthcare services, such as various immunizations,
                                                          including polio and tuberculosis, for children. The Ministry
                                                          of Public Health is responsible for stocking the clinic with
                                                          medical and pharmaceutical supplies and the clinic
                                                          director informed us that high-risk medication, such as pain
                                                          killers, was kept in a secured area with limited access. We
Source: SIGAR photo, January 23, 2013.                    also observed U.S. Agency for International Development
                                                          educational information on pre- and post-natal care that
                                                          was accessible to all patients.


AFGHAN GOVERNMENT IS SUSTAINING THE
MEDICAL CLINIC
                                                                             Photo 3 - Pharmaceutical Supply Room
Our inspection showed that clinic facilities were being well
sustained. CERP guidelines require that projects funded under
the program be sustained by the Afghans. The Ministry of Public
Health is responsible for the Qala-I-Muslim clinic, and as part of
the project approval process, it signed an agreement stating
that it would operate and maintain the clinic upon completion.
Based on our inspection, the Ministry of Public Health is fulfilling
its commitment to sustain the medical clinic. For example, light
switches worked, floors were clean, bedding was plentiful and
well kept, heating system worked, windows and doors were
operable, and the pharmacy was well stocked. Photo 3 shows
the pharmacy’s stocked supply room.



                                                                             Source: SIGAR, January 23, 2013



3   We were not able to observe working medical staff due to privacy concerns.



SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic                        Page 2
NO MAJOR CONSTRUCTION ISSUES WERE IDENTIFIED, BUT MISSING
DOCUMENTATION PREVENTED A COMPLETE INSPECTION

During our site visit, we inspected two of the three buildings associated with the clinic: the medical clinic
building and pharmacy. We did not observe any major construction issues, such as large foundation cracks,
major cracks in the walls or ceilings, or non-functioning windows or doors. The medical clinic had heat,
electricity, and water and was wheel chair accessible, via a ramp at the front of the clinic.
Although we noted no major construction issues, we were not able to fully assess the quality of construction or
construction oversight, due to missing project documentation.4 Our inspections would normally include the
review of project design, planning, construction, oversight, and related documents. However, we found that
more than half of the construction documents had not been uploaded, as required by USFOR-A CERP guidance,
into the Combined Information Data Network Exchange (CIDNE) database.5
Overall, we found that 16 of the 30 documents (53.3 percent) required to support the medical clinic project
were missing from the CIDNE database. For example, the statement of work, land-use agreement, blueprints
and drawings, quality assurance reports, and a completed “punch list” were missing from CIDNE. Appendix III
contains more detail on the missing project documents. As a result of the missing documents, we were not
able to evaluate the contractor’s adherence to technical specification requirements and contracted design
standards. USFOR-A CERP guidance requires projects to be properly documented, and continually monitored
and maintained from project nomination to closure or turnover, to include uploading project files into the
CIDNE database.6
Missing project documentation is not a new issue. In 2009, SIGAR reported that CERP program officials were
not complying with requirements to enter project information into the database.7 In response, U.S. Forces-
Afghanistan officials stated that they planned to improve access to project information by requiring that project
documents be uploaded into the database. However, based on the lack of documents found in CIDNE for the
Qala-I-Muslim medical clinic project, the completeness of project files is still a problem.
The CIDNE database contained some of the required documents for our inspection. For example, we found a
Joint Task Force Kabul oversight report, dated may 2011, stating that the project was proceeding on schedule.
The report noted there were no major construction issues and that the local elders were pleased with the
quality of construction. We also found close-out documentation that stated that construction was completed
within budget and that the facility was turned over to the Ministry of Public Health within the period of
performance.




4Based on our observations of similar CERP projects, this project should have included site improvements and the design
and construction of a health clinic and unattached pharmacy. In addition, the scope of work should have included the
management, design, material, labor, and equipment to design and construct the facility.
5 CIDNE is a Department of Defense database that U.S. Central Command uses to manage theater-wide operational
reporting, quality assurance, and quality control in Afghanistan.
6   See USFOR-A Money As A Weapon System–Afghanistan (MAAWS-A).
7 SIGAR Audit 09-05, Increased Visibility, Monitoring, and Planning Needed for Commander’s Emergency Response
Program in Afghanistan, September 2009. The report noted that, while the Department of Defense had required monthly
input on CERP projects into the DOD electronic data management system, this was often not done.



SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic                        Page 3
CONCLUSION

The CERP-funded construction of the Qala-I-Muslim medical clinic appears to be a success story. The
community supported the clinic’s construction, the land was donated by a local elder, and the facilities are
being used by the community. In addition, the Afghan government should be commended for properly
sustaining the medical clinic and pharmacy.
Although we did not observe any major construction deficiencies, we were not able to fully assess whether the
medical clinic’s construction met the terms of the contract and construction standards. Our full assessment
was unattainable because more than half of the required project documents were missing from the CIDNE
database. Missing CERP project documentation has been noted before and, given the absence of such a large
number of documents associated with the medical clinic, it continues to be a problem.


RECOMMENDATIONS

To ensure that CERP construction projects are planned, designed, and completed in accordance with contract
design standards and technical specification requirements, and to help ensure effective quality assurance and
project oversight, we recommend that the Commanding General, U.S. Forces–Afghanistan, direct the
appropriate force elements to

    1. ensure that project documentation related to CERP projects complies with CERP guidance and
    2. periodically review the CIDNE database to ensure that all required project documents are uploaded
       into the database.


COMMENTS

In commenting on a draft of this report, the U.S. Forces-Afghanistan command concurred with our
recommendations and noted actions it has taken to implement them. For example, consistent with our
recommendations, the Commanding General, U.S. Forces-Afghanistan, has directed that personnel ensure that
documentation complies with CERP guidance and periodically review the CIDNE database. The full text of the
U.S. Forces-Afghanistan’s comments is reproduced in appendix IV.




SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic                 Page 4
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the inspection results of a Commander’s Emergency Response Program (CERP)-funded
contract (CERPOMKBTPP194) to construct a medical clinic in the village of Qala-I-Muslim, located in Kabul
province. To determine whether construction was completed in accordance with contract requirements and
applicable construction standards, deficiencies were corrected before acceptance and transfer, and facilities
were being used as intended and sustained, we
       reviewed relevant contract documents that were available to understand project requirements and
        contract administration;
       interviewed cognizant Afghan officials concerning the operation and maintenance of the completed
        facility; and
       conducted an inspection at the medical clinic to observe the quality of construction and determine the
        sustainability of the facility.
During our inspection, we noted that project documentation in the Department of Defense’s Combined
Information Data Network Exchange (CIDNE) database was incomplete and did not comply with CERP
requirements. As a result, we were unable to assess whether the construction of the facility was conducted
and completed in accordance with the terms and conditions of the contract and construction standards.
We conducted work in Kabul province from September 2012 through March 2013, in accordance with the
Quality Standards for Inspection and Evaluation, published by the Council of the Inspectors General on
Integrity and Efficiency. These standards were established to guide inspection work performed by all of the
Offices of Inspectors General. The engineering assessments were conducted by Professional Engineers in
accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers. We did not rely
on computer-processed data in conducting this inspection. We considered the impact of compliance with laws
and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. This inspection was conducted by the Office of the Special Inspector General for
Afghanistan Reconstruction under the authority of Public Law 110-181, as amended, and the Inspector
General Act of 1978, as amended.




SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic               Page 5
APPENDIX II - QALA-I-MUSLIM MEDICAL CLINIC BUILDING PLAN

Figure I - Medical Clinic Building Plan




Note: Not to scale
Source: SIGAR Analysis




SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic   Page 6
APPENDIX III - COMMANDER’S EMERGENCY RESPONSE PROGRAM
DOCUMENTATION

The Commander’s Emergency Response Program (CERP) is governed by Money As A Weapon System–
Afghanistan (MAAWS-A). MAAWS-A covers the type of projects that can and cannot be funded by CERP, the
approval levels (based upon requested funding amounts), program responsibilities, project management, and
other items including the required project documentation. CERP-required documents are to be uploaded into
the Combined Information Data Network Exchange (CIDNE) database. Table I provides the results of SIGAR’s
review of documents for the medical clinic project file that were required to be uploaded into CIDNE.


           Table I - Documentation Check List
                              Required Documents                     Found in       Not Found in
                                                                      CIDNE            CIDNE

           Nominating Afghan Development Report                          X

           Independent Government Cost Estimate                                             X

           Cost Methodology Memorandum                                                      X

           Coordination Memorandum                                       X

           Funding document (DA- 3953, DD-448 or DD-1149)                X

           Statement of Work                                                                X

           Draft Contract                                                                   X

           Legal Review                                                  X

           Letter of Justification                                       X

           Right of Entry Memorandum                                     X

           Land Use Agreement                                                               X

           Sustainment Memorandum of Agreement                           X

           Storyboard Slide                                                                 X

           Blueprints, Drawings, Maps, and Photos                                           X

           Project Management Plan (>$1 million)                                            X

           Invoices & Payments (DD-250 or SF-44)                         X

           Project Correspondence                                                           X

           Project Updates                                                                  X

           Quality Assurance Reports                                                        X

           Quality Assurance Visits (Minimum of Three)                                      X




SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic           Page 7
           As-Built Drawings, Manuals, Spare Parts, and Completed
                                                                                             X
           Punch List, As Required by the Contract

           Project Management and Appointment Forms (Including
                                                                          X
           DD-577)

           Project Clearance Letter                                       X

           Signed Contract                                                X

           Transfer of Authority Documents, As Appropriate                X

           Completed and Signed Afghan Development Report                 X

           Acceptance Memorandum                                                             X

           Final Operational Data Storage                                 X

           Requirement for Upload to CIDNE                                                   X

           Post Closure Quality Assurance Visits (60, 120 & 365
                                                                                             X
           Days)

           Total Documents                                              14                  16 a

           Source: Money As A Weapon System–Afghanistan; November 2010.

           Notes:
           a 16 out of 30 documents missing, or 53.3%.




SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic          Page 8
APPENDIX IV - COMMENTS FROM U.S. FORCES–AFGHANISTAN




                                                       HEADQUARTERS
                                               UNITED STATES FORCES-AFGHANISTAN
                                                      KABUL, AFGHANISTAN
                                                          APO AE 09356




               USFOR-A J9                                                               28 March 2013


               MEMORANDUM FOR Special Inspector General for Afghanistan Reconstruction (SIGAR),
               2530 Crystal Drive, Arlington, Virginia 22202-3940

               SUBJECT: SIGAR Inspection 13-7, QALA-1-MUSLIM MEDICAL CLINIC: SERVING THE
               COMMUNITY WELL, BUT CONSTRUCTION QUALITY COULD NOT BE FULLY
               ASSESSED


               I. USFOR-A concurs with SIGAR recommendation found on page 4 of this report: To ensure
               that CERP construction projects are planned, designed, and completed in accordance with
               contract design standards and technical specification requirements, and to help ensure effective
               quality assurance and project oversight, we recommend that the Commanding General, USFOR-
               A, direct the appropriate force elements to I. Ensure that project documentation related to CERP
               projects complies with CERP guidance and 2. Periodically review the ClONE database to ensure
               that all required project documents are uploaded into the database.

               2. The Commanding General, US FOR-A, did direct that appropriate force elements ensure that
               documentation complies with CERP guidance and that they periodically review the ClONE
               database in USFOR-A Money as a Weapons System-Afghanistan (MAAWS-A), March 2012.
               Specific direction, includes, but is not limited to:

                  a. CERP projects need to be properly documented and continually maintained from project
                     nomination to closure/turnover in the CTDNE database. (Chapter I, page, 3, para D.)

                  b. The Program Manager will ensure that Project Managers (PMs) are maintaini11g and
                     properly entering complete project data and closing out projects accurately in ClONE.
                     (Chapter 2, page 12, para H.l.)


                  c. The PM will be responsible for managing the project from nomination to completion,
                     updating CTDNE as changes occur. . . (Chapter 2, page 13, para I. 2.)

                   d. The Project Manager (PM) must update the Afghanistan Development Report (ADR) in
                      ClONE as project milestones are reached. (Chapter 2, page 33, para E.S.)




SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic                         Page 9
               L Sl OR-A .19


               SL-13JECT. SIG:\R lnspcctwn 13-7. (.)AI.t\-1-:"\.ll.'SLI\1 :\·1EDIC,\L CU:'\IC:: SERVI:--.G T il[
               C0:\1MCNIT1 WELL. BL r COl'S I RCCTIO:\ Q U,\LII Y COL'LD :-.;oT BE Flil LY
               ASSESSm



                  c.    (The Project manager"' ill) Maintain the project file to ensure all required documentation
                       is accounted for and uploaded to thc i\DR in ClONE. to include periodic Q.\ reports for
                       construction projects. (Chapter 2. page 35. para L.5.c. l


               3. USFOR-A J9 periodically ~ample~ prOJeCt files from Regional Commands prior to staff
               assbtance 'is its and inspections and looks for incomplete mformation during thts sampling.
               Army Budget Ot1ice also samples LI:.RI' proJects m LIU'-1::. and conducts month!) traming and
               rcYiC\\ sessions'' ith US FOR-A and Regional Command CERP program managers.




                                                                ~*,;:;,:~~
                                                                COI.CL\
                                                                 l '';IOR-A .19




SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic                            Page 10
APPENDIX V - ACKNOWLEDGMENTS

Crawford “Les” Thompson, Senior Inspections Manager
Warren Anthony, Senior Auditor
Adriel Harari, Senior Auditor
Lise Pederson, Professional Engineer
Kim Maria Arellano, Investigative Analyst




SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic   Page 11
                               This inspection report was conducted under
                                        project code SIGAR-I-005G.




SIGAR Inspection 13-7/Qala-I-Muslim Commander’s Emergency Response Program Medical Clinic   Page 12
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
